Filing # 106332981 E-Filed 04/16/2020 01:06:27 PM

Supreme Court of Jflorfoa
THURSDAY, APRIL 16, 2020
CASE NO.: SC19-2133
Lower Tribunal No(s).:
1D17-5010;
032016CF001544XXAXMX
KENNETH LEE MANHARD

vs.

Petitioner(s)

STATE OF FLORIDA
Respondent(s)

This cause having heretofore been submitted to the Court on jurisdictional
briefs and portions of the record deemed necessary to reflect jurisdiction under
Article V, Section 3(b), Florida Constitution, and the Court having determined that
it should decline to accept jurisdiction, it is ordered that the petition for review is
denied.
No motion for rehearing will be entertained by the Court. See Fla. R. App. P.
9.330(d)(2).
CANADY, C.J., and POLSTON, LABARGA, LAWSON, and MUNIZ, JJ., concur.
A True Copy
Test:

John A. Tomasmo
Clerk, Supreme Court
ks
Served:
DANIELLE JORDEN
DAMARIS E. REYNOLDS
SHARON S. TRAXLER
HON. KRISTINA SAMUELS, CLERK
HON: BILL KINSAUL, CLERK
HON. MICHAEL C. OVERSTREET, JUDGE

Ef-ft ;

3 1

First District Court of Appeal
State of Florida
No. 1D17-5010

Kenneth Lee Manhard,
Appellant,
v.
State of Florida,
Appellee.

On appeal from the Circuit Court for Bay County.
Michael C. Overstreet, Judge.
October 1, 2019

B.L. Thomas, J.
Appellant challenges his judgment and sentence for leaving
the scene of a crash involving death, DUI manslaughter, and
driving while license canceled, suspended, or revoked, causing
serious bodily injury or death. We affirm because the evidence was
sufficient to sustain the conviction, and the trial court’s relevant
evidentiary rulings were correct.
Facts
All charges arose from a crash on April 7, 2016, that resulted
in the death of a motorcycle driver. The parties stipulated that
Appellant had a suspended driver’s license at the time of the
offense. Eyewitnesses testified that Appellant had been driving a
white Hyundai sedan that morning. One witness testified that

%

w
ai
<

Q^

Appellant had appeared intoxicated at 3:54 a.m. when Appellant
drove away in an undamaged white sedan. Other witnesses stated
that between 4 and 5 a.m., they saw Appellant sitting behind the
driver’s seat of a white sedan with his eyes closed. They testified
there was damage to the front of the vehicle and windshield, with
the windshield containing a “butt print,” blood, and hair. They also
testified Appellant stated he had not hit anybody and that
“someone threw a scooter at me.”
A highway patrol officer testified that he responded to the
scene of an accident involving the death of a motorcycle driver on
Hathaway Bridge. The officer stated the damage to the rear and
side of the motorcycle was consistent with a rear-end collision, and
blood pools on the bridge indicated the motorcycle’s driver had
been hit and then moved by subsequent collisions. He testified that
dispatch notified him of a suspect vehicle at a nearby gas station,
where he observed Appellant next to a white Hyundai sedan,
which had a damaged front end and windshield. He noted that
both the blood and the “significant nature” of the deformed
windshield showed the vehicle made contact with a human body,
and there was an injury. In addition, he observed blue and green
paint consistent with the victim’s license plate, which had
transferred onto the white vehicle.
A forensic pathologist testified that the cause of death was
multiple blunt injuries, each of which could have caused great
bodily harm. She stated, however, that it was impossible to
determine which of the multiple impacts caused which specific
injury.
After the State rested, Appellant moved for judgment of
acquittal on all counts. Regarding the charge of leaving the scene
of a crash involving death, Appellant argued the State failed to
establish he knew or should have known he was involved in a crash
with a person. He also argued the State failed to establish that he
knew or should have known his crash with the victim resulted in
the victim’s death. He asserted that a driver must know of the
specific impact that resulted in injury, when the crash involves
multiple impacts.
As to the DUI manslaughter charge, Appellant argued the
State failed to establish that he was impaired at the time he was
2

in actual physical control of the vehicle or that he caused or
contributed to the victim’s death. Lastly, regarding the charge of
driving while license canceled, suspended, or revoked causing
serious bodily injury or death, Appellant argued the State failed to
provide evidence that Appellant drove carelessly or negligently.
The trial court denied Appellant’s motion on all counts.
Before trial, Appellant filed a motion in limine, stating:
The State [intends] to show the video from the backseat
of [a] Trooper[’s] vehicle. The video contains reference to
matters which have been suppressed, crimes not charged,
and further matters which are more prejudicial than
probative in this case.
At a pretrial hearing, the State agreed to redact the recording
to omit references to all the instances fisted in Appellant’s motion
in limine, including the segment which showed Appellant being
restrained. At trial, Appellant reaffirmed the objections fisted in
the motion in limine, stating, “[j]ust with previous objections.”
The redacted recording showed that Appellant was advised of
his Miranda* rights, and he invoked his right to silence. However,
Appellant continued to talk after invoking his right, and claimed
he did not own and had not driven the vehicle. He further alleged
a bird had hit his windshield. Throughout the recording, Appellant
used offensive language, threatened the officers, and threatened to
urinate in the car. The recording also showed an interaction
between two officers during which one officer mentioned “[h]e’s
invoked his right to remain silent.” Appellant made no other
objections during or after the presentation of the recording and did
not move for a mistrial.
On Appellant’s Criminal Punishment Code scoresheet, the
State assessed Appellant 120 points in the “Victim Injury”
category for “death.” Appellant filed a second motion to correct
sentence under Florida Rule of Criminal Procedure 3.800(b).
Appellant argued that because the jury did not find Appellant
actually caused the death or that the death was a direct result of

* Miranda v. Arizona, 384 U.S. 436 (1966).
3

Appellant’s actions, Appellant’s scoresheet sentence
impermissibly increased by a factor not found by the jury.

was

The trial court denied Appellant’s second motion to correct
sentence, stating, “the language of [section 921.0021(7)(a), Florida
Statutes] imparts no such requirement; [t]he Defendant’s
conviction for DUI Manslaughter is sufficient on its own to support
the enhancement.”
Analysis
I. The trial court did not err in denying the motion for judgment of
acquittal .
Our review of the trial court’s ruling denying the motion for
judgment of acquittal is de novo. Pagan v. State, 830 So. 2d 792,
803 (Fla. 2002). “A trial court should not grant a motion for
judgment of acquittal unless the evidence, when viewed in a light
most favorable to the State, fails to establish a prima facie case of
guilt.” State v. Odom, 862 So. 2d 56, 59 (Fla. 2d DCA 2003). “Where
the state has produced competent evidence to support every
element of the crime, a judgment of acquittal is not proper.” Gay v.
State, 607 So. 2d 454, 457 (Fla. 1st DCA 1992).
Under section 316.027, Florida Statutes, to prove that the
driver of a vehicle left the scene of a crash involving death or
injury, the State must prove the driver of the vehicle had actual
knowledge of a crash. But the State is not required to prove the
defendant knew or should have known that a death occurred to
sustain a conviction for leaving the scene of a crash resulting in
death. See State v. Dumas, 700 So. 2d 1223 (Fla. 1997). Rather, the
State must prove the defendant knew or reasonably should have
known that a person was at least injured in the crash. See State v.
Mancuso, 652 So. 2d 370, 371 (Fla. 1995) (holding that criminal
liability for leaving the scene of an accident involving death or
injury required proof that motorist knew of resulting injury or
death or reasonably should have known from the nature of the
accident).
The nature of the vehicle damage may be used to establish
that the defendant should have known there was serious injury.
See Pitts v. State, 227 So. 3d 674, 677 (Fla. 1st DCA 2017). In Pitts,
4

this Court held the trial court did not err in denying the
defendant’s motion for judgment of acquittal when the State had
produced sufficient evidence that the defendant knew or should
have known there was serious injury by presenting evidence that
the defendant’s DNA was on the steering wheel, the victim had
rolled over the hood of the car, and the victim had impacted the
windshield. Id. at 477.
Here, the State presented sufficient evidence that Appellant
knew of the crash and knew or should have known there was
serious injury. It introduced into evidence jail phone calls in which
Appellant admitted, “somebody hit him into me, he rolled up over
my car, broke the windshield, I freaked out, kept on driving.” The
State presented testimony that Appellant had been in the driver’s
seat with a damaged windshield and glass on him, and that he
claimed a scooter hit his windshield. The State thus presented
evidence that Appellant knew or should have known that there
was serious injury to a person as Appellant’s vehicle had hit the
victim on his motorcycle from behind with enough “significant
force” that the victim’s body impacted the windshield. Viewed in
the fight most favorable to the State, the State established every
element of leaving the scene of a crash involving death. See Odom,
862 So. 2d at 59.
Appellant also challenges the denial of the motion on the
grounds that Booker v. State, 103 So. 3d 1035 (Fla. 2d DCA 2012)
and McGowan v. State, 139 So. 3d 934 (Fla. 4th DCA 2014) hold
for the principle that where the victim is involved in a multipleimpact collision, the State must prove the additional element that
the driver knew of the specific impact that actually resulted in the
injury. Even if these cases were binding on this Court, which they
are not, see Pardo v. State, 596 So. 2d 665, 666—67 (Fla. 1992) (“[I]n
the absence of interdistrict conflict, district court decisions bind all
Florida trial courts”) (emphasis added); seeAnsin v. Thurston, 101
So. 2d 808, 810 (Fla. 1958) (holding the district courts of appeal
were never intended to be intermediate courts, and review by the
district courts are final and absolute in most instances); see In re
Rule 9.331, Determination of Causes by a Dist. Court of Appeal En
Banc, Fla. Rules of Appellate Procedure, 416 So. 2d 1127, 1127-28
(Fla. 1982)(noting the amendment “substantially strengthened the
position of the district courts of appeal as final appellate courts”),
both cases are distinguishable.
5

In Booker, the Second District held the State failed to present
evidence that Booker knew or should have known that injury was
a consequence of the crash when there was minimal injury to the
vehicle and the victim’s car was partially obscured from view by a
parked patrol car. 103 So. 3d at 1036. Furthermore, nothing about
the nature of the impact in and of itself established Booker knew
or should have known the victim’s car was occupied or that the
victim was injured. Id. The present case is distinguishable as the
victim was driving a motorcycle on a bridge, there was no evidence
presented that the victim or his motorcycle were obscured from
view, and both the victim and his motorcycle, as well as Appellant’s
vehicle, sustained substantial damage.
In McGowan, the Fourth District held the State failed to prove
that McGowan knew or should have known that the accident
involved a person when McGowan was not the first vehicle to hit
the victim, other cars before him had not stopped, and testimony
established the victim could not have been seen given the dim
fighting conditions and the way the victim’s body flew up in the
air. 139 So. 3d at 938-39. Here, the State provided evidence that
Appellant should have seen the victim, and known the accident
involved a person. In addition, Appellant admitted in a jail phone
call that he had hit someone, “freaked out,” and kept driving.
II. The trial court did not err in admitting into evidence the
recording from the trooper’s vehicle
Appellant challenges the court’s admission of the recording
from the trooper’s vehicle. Appellant argues the recording
'"■contained evidence of bad acts, uncharged collateral crimes, and
comments on Appellant’s silence which encouraged the jury to
render a verdict based on Appellant’s bad character or prior bad
acts, rather than whether the State proved his guilt for the crimes
charged. We disagree.
First, we note that Appellant has not preserved his objections.
“[T]o raise an error on appeal, a contemporaneous objection must
be made at the trial level when the alleged error occurred.” Carr v.
State, 156 So. 3d 1052, 1062 (Fla. 2015) (citing J.B. v. State, 705
So. 2d 1376, 1378 (Fla. 1998). “If the court has made a definitive
ruling on the record admitting or excluding evidence, either at or
before trial, a party need not renew an objection or offer of proof to
6

preserve a claim of error for appeal.” § 90.104(1), Fla. Stat. (2019).
However, failure to object in the trial court does not constitute a
waiver of the right to raise the issue upon appear when the error
of the trial judge constitutes a fundamental error. Willard v. State,
386 So. 2d 869, 871 (Fla. 1st DCA 1980). Fundamental error is
error that “reach[es] down into the validity of the trial itself to the
extent that a verdict of guilty could not have been obtained without
the assistance of the alleged error.” Carr, 156 So. 3d at 1063
(quoting Archer v. State, 934 So. 2d 1187, 1205 (Fla. 2006)).
Here, Appellant objected to parts of the recording through his
motion in limine and reaffirmed those objections at trial by stating,
“[j]ust with previous objections.” Appellant made no other
objections during or after the presentation of the recording, and
did not move for mistrial. Appellant was not required to renew the
objections concerning the portions of the recording listed in the
motion in limine, and those issues have been preserved for
appellate review. However, Appellant’s argument regarding his
repeated use of profanities, threat to urinate, and the comment on
Appellant’s silence was not included in the motion in limine, and
Appellant did not make a contemporaneous objection. Accordingly,
Appellant has not preserved the issues regarding his use of
profanity, threats to urinate, and the comment on Appellant’s
silence.
We further hold that the admission into evidence of the
redacted recording did not constitute fundamental error. “For an
error to be so fundamental that it may be urged on appeal though
not properly preserved below, the asserted error must amount to a
denial of due process.” Castor v. State, 365 So. 2d 701, 704 n.7 (Fla.
1978). The State introduced the recording as evidence of
Appellant’s intoxication, an element of DUI Manslaughter. In
addition, the comment regarding Appellant’s invocation of his
right to remain silent was to inform the second officer that he could
not ask Appellant any questions. The admission of Appellant’s
actions and statements as well as the statement regarding
Appellant’s silence did not create any error to the extent that a
guilty verdict could not have been obtained without the assistance
of the alleged error. See F.B. v. State, 852 So. 2d 226, 229 (Fla.
2003). Thus, the trial court did not err by admitting the recording
into evidence.
7

And even if the issues had been preserved, the trial court did
not abuse its discretion. Appellant alleges the recording shows him
threatening the officers and threatening to kick the window of the
patrol car, which constitutes bad acts and uncharged collateral
crimes. But, “collateral-crime evidence, such as bad acts not
included in the charged offenses, is admissible when relevant to
prove a material fact in issue, but is inadmissible when the
evidence is relevant solely to prove bad character or propensity.”
Wright v. State, 19 So. 3d 277, 291-92 (Fla. 2009)(emphasis
supplied). The admission of collateral-crime evidence is not
considered Williams-rule evidence when it is inextricably
intertwined with the charged offenses. Id. at 292. Evidence of other
bad conduct may be admitted as inextricably intertwined with the
charged offense when it is “a relevant and interwoven part of the
conduct that is at issue.” Id. (emphasis supplied).
Here, Appellant’s behavior, demeanor, words, and acts are
relevant to establish the material fact of impairment at the time of
the crash, an element of the crime of DUI Manslaughter. §
316.193(l)(a), Fla. Stat. (2019). Accordingly, the inclusion of
evidence of Appellant’s conduct was relevant to show impairment
and was inextricably intertwined with the DUI Manslaughter
charge. Thus, the trial court did not err in admitting the recording,
and did not abuse its discretion. See Dorsett v. State, 944 So. 2d
1207, 1216 (Fla. 3d DCA 2006) (holding where evidence of a prior
drug transaction went towards a material issue in dispute, there
was no abuse of discretion in admission of the evidence).
III. The trial court properly assessed victim-injury points
Appellant argues the 120 victim-injury points for death on the
Criminal Punishment Code Scoresheet were assessed in error as
the evidence did not show, and the jury did not find, that the death
of the victim was the direct result of any of Appellant’s crimes or
convictions in this case.
“[T]he decision of a trial court to impose victim-injury points
is subject to an abuse-of-discretion standard.” Sims v. State, 998
So. 2d 494, 504 (Fla. 2008) (citation omitted). “Victim injury shall
be scored for each victim physically injured during a criminal
episode or transaction, and for each count resulting in such injury
whether there are one or more victims.” Fla. R. Crim. P.
8

3.701(d)(7). “Points for victim injury [are] added for each victim
injured during a criminal transaction or episode. The injury need
not be an element of the crime for which the defendant is convicted,
but is limited to physical trauma.” Florida Rules of Criminal
Procedure Re: Sentencing Guidelines (Rules 3.701 & 3.988), 522 So.
2d 374 (Fla. 1988). The supreme court clarified that the “direct
result” language included a causation element linking the death of
the victim and the charged offense. Sims, 998 So. 2d at 505. A
conviction under “vehicular homicide or any other offense in which
the crime actually involved the impact that caused the death ...
would have satisfied the causation requirement for the imposition
of victim-injury points.” Id. Here, Appellant was charged with DUI
manslaughter, which satisfies the causation requirement as it
links the death with the charged offenses. Therefore, the victiminjury points were properly assessed.
Affirmed.
Lewis and Roberts, JJ., concur.

Not final until disposition of any timely and
authorized motion under Fla. R. App. P. 9.330 or
9.331.

Andy Thomas, Public Defender, Danielle Jorden, Assistant Public
Defender, Tallahassee, for Appellant.
Ashley Moody, Attorney General, Sharon S. Traxler, Assistant
Attorney General, Tallahassee, for Appellee.

9

Warrant P:
IN THH CIRCUIT COURT. FOURTEENTH JUDICIAL CIRCUIT
OF THE STATE OF FLORIDA, IN AND FOR BAY COUNTY
STATE OF FLORIDA
vs
Kenneth Lee Manhard

APPLICATION AND AFFIDAVIT FOR SEARCH WARRANJ
Before me. the undersigned Circuit/County Judge, State of Florida, personally came CorporalTraffic Homicide Investigator William A. Mathers, who, by me being duly sworn, deposes and
savs that he believes and has good reason to believe that the laws ol the State of Florida arc
beins violated in or by means of, the following vehicle or evidence of a crime is contained within
or 3bout the following described vehicle, now stored in Bay County, Florida, to-wit:
EXHIBIT A
A white. 2008 Hyundai Accent, bearing vehicle identification number KMHCM36C68U065035,
believed to be currently' at the Florida Highway Patrol Station located at 60o0 County Road
2321, Panama City, FL 32404, which was owned by Olive Faye Manhard, and was operated by
Kenneth I .ee Manhard, on April 17. 2016.
Your affiant has probable cause to believe that the following items are upon or wdihin such
vehicle.
EXHIBIT B
What is commonly referred to as the “event data recorder' (EDR). and any retrievable
information contained therein, possible biological evidence on the interior and/or exterior ol the
vehicle, possible physical evidence (paint transfers, gouges, evidence of Iresh damage, etc.) on
the exterior of the vehicle; any potential identifying evidence contained on the interior of the
vehicle.
EXHIBIT C
On Aprii 1 7. 2016, at approximately 4:05 a.m. Kenneth Lee Manhard did commit the offense of
DU I Manslaughter contrary to 316.193.3c3a F.S.S. when he was in active physical control of a
motor v ehicle involved.in a crash while under the influence of alcohol and/or drugs which
resulted in the killing of a human being. Jerry Malachi Jones Jr (09/1 9/1985). Kenneth Lee

r
io
g

EXHIBIT

i-d

t

Warrant#:
Manhard did also commit the offense of DUI Manslaughter contrary to 316.193.3c3b F.S.S.
when he was in active physical control of a motor vehicle involved in a crash while under the
influence of alcohol and/or drugs which resulted in the killing of a human being. Jerry Malachi
Jones Jr (09/19/1985) and at the time of the crash, the person knew, or should have known, that
the crash occurred: and the person failed to give information and render aid as required by
316.062 F.S.S. Additionally, on April 17, 20)6, at approximately 4:05 a.m. Kenneth Lee
Manhard did also operate a motor vehicle while his driver license or driving privilege is
canceled, suspended, or revoked and by careless or negligent operation of the motor vehicle
caused the death of or serious bodily injury to another human being, Jerry Malachi Jones Jr.
(09/19/1985). in violation of 322.34(6)(b) F.S.S
On April 17. 2016. the Florida Highway Patrol Tallahassee Regional Communication Center
received notification of a traffic crash with injuries on State Road 30 (eastbound Hathaway
Bridge) in Bay County. Florida. Trooper B. Gill was dispatched to investigate. Upon arriving
on scene Trooper Gill established the crash involved a blue scooter, operated by a Jerry Malachi
Jones Jr (09/19/1985). Trooper Gill learned the crash had resulted in fatal injuries to the scooter
operator. Due to the nature of the injuries Trooper Gill secured the scene, and began to collect
information. Your Affiant, Corporal W.A. Mathers, was dispatched to conduct a homicide
investigation.
Your Affiant approached the crash scene on State Road 30 (eastbound Hathaway Bridge) from
the west. Your Affiant noted that State Road 30 (eastbound Hathaway Bridge) in the vicinity of
the crash scene had been cordoned off and secured by other Florida Highway Patrol T roopers.
Your Affiant observed a blue 2015 TAOI Scooter, bearing Florida License Plate 3793RW. at
final rest overturned on the south shoulder of the roadway facing in a northerly direction. The
damage indicated ihe TAOI was struck from the rear before overturning.
Your Affiant made contact with Trooper Gill who informed me the initial crash involved the
TAOI operated by driver. Trooper Gill informed me the driver of the TAOI had been identified
as Jerry Malachi Jones Jr by his Florida Driver's License.
Your Affiant conducted a walk-through survey of the crash scene. Your Affiant started the
survey by back tracking the path of Jones and the TAOI from their location of final rest. Your
Affiant was abie to trace the path of both Jones and the TAOI by various surface marks and
debris to the Area of Collision (AOC) on the center eastbound lane of State Road 30 (Hathaway
Bridge).
Your Affiant determined that the TAOI had been traveling eastbound on State Road 30
(Hathaway Bridge) on the center lane. The posted speed limit on State Road 30 (eastbound
Hathaway Bridge) was 45 miles per hour. Your Affiant also observed that portion of State Road
30 (eastbound Haihawav Bridge) at the scene'had a positive.grade (uphill) and was comprised of
concrete.
Based on the physical evidence Your Affiant determined the TAOI was traveling eastbound on

1 -

Warrant #: /b
the center travel lane of State Road 30 (Hathaway Bridge) when it was struck from behind. The
TAOl continued eastbound before overturning and traveling from the center eastbound lane,
across the outside eastbound and onto the eastbound shoulder coming to final rest on its right
side. The operator of the TAOI was ejected from the scooter colliding with the surface of the
bridge on the right lane of State Road 30 (eastbound Hathaway Bridge). While at the scene,
TRCC was notified that the suspect vehicle was traveling westbound on State Road 30. Trooper
L. Tavares was able to located the suspect vehicle as it entered the Exxon gas station parking lot
located at 7624 US 98 Panama city Beach, Florida 32407 and subsequently detained the driver
and awaited my arrival.
After clearing the scene Your Affiant traveled to the Exxon gas station parking lot. As Your
Affiant did so. Your Affiant saw that there was a white Hyundai Accent bearing a North
Carolina license Plate YND4469. Your Affiant also saw that Sergeant J.D. Johnson, who also
responded to the Exxon gas station, was talking with the detained driver of the Hyundai. After
approaching the detained driver, YOUR AFFIANT learned that his name w'as Manhard. While
talking to Manhard, Your Affiant could smell the strong odor of an alcoholic beverage coming
from him and stronger as he spoke. YOUR AFFIANT also noted that Manhard was belligerent
and uncooperative. YOUR AFFIANT noted that there appeared to be glass shards on the front
portion of his shirt also. While present, Your Affiant learned that Manhard had a valid North
Carolina Driver's License belonging to Kenneth Lee Mawhard. Upon inspection of the Hyundai,
YOUR AFFIANT noted that there was damage to the frontal portion of the vehicle along with
damage to the windshield. YOUR AFFIANT noted that there was blood and hair/skin present in
the windshield and blue transfer paint on the frontal portion which was consistent with striking
the TAOl and the operator. Inside the Hyundai. YOUR AFFIANT noted that there was clothing
in the front passenger seat along with glass shards which indicated no one was present in the
front passenger seat at the time ofthe collision. YOUR AFFIANT noted that there was glass
shards spread across the rear (back) seat from passenger side to driver side also indicating that
there was no one present in the rear seals at the time of the crash. There was glass shards in the
driver's seat with a void in the center ofthe seat which indicated that there was someone
occupying the seat at the time ofthe collision. Based on the Manhard possessing a North
Carolina Driver's License, the Hyundai bearing a North Carolina License Plate, glass shards in
the Hyundai indicated that there was only a single occupant and glass shards on the front of
ManharcFs clothing, it was determined that Manhard was the sole occupant and in active
physical control ofthe Hyundai at the time of the collision. Based on my observations of
Manhard, evidence supporting that he was in active physical control ofthe Hyundai at the time
ofthe collision which resulted in the death of another human being, Jerry Malachi Jones Jr, and
subsequently leaving the scene failing to leave infonnation or render aid. YOUR AFFIANT
placed Manhard under arrest. Based on the before mentioned evidence, Manhard was transported
to Gulf Coast.Community Hospital by Trooper Tavares.
While traveling to Gulf Coast Community Hospital, Manhard continued being uncooperative and
combative, kicking at the rear passenger window of Trooper Tavares's marked patrol car. After
slopping in the parking lot ofthe Winn Dixie. Trooper Tavares, Corporal Bailey and Your
Alfiant placed a hobble on Manhard preventing him from doing harm to himself or State

Tz

V

Warrant P:

s/r'r'
Affiant
Svvom to and subscribed before me this 14 day of October. 2015.

//Q
Witness/LfiOTState fjfdoper

■za'

The above application for search warrant coming on to be heard and having examined the
applicant under oath and the above sworn affidavit set forth and thereupon being satisfied that
there is probable cause to believe that the grounds set forth in said application and-feets-do exist
and that the law is being violated as alleged. 1 so find, and a search warrant is hereby allowed
and issued.

Circuit/County Judge
14lh Judicial Circuit of Florida

Warrant U //£

IN THE CIRCUIT COURT. FOURTEENTH JUDICIAL CIRCUIT
OF THE STATE OF FLORIDA. IN AND FOR BAY COUNTY
STATE OF FLORIDA
vs
Kenneth Lee Manhard
/

SEARCH/WARRANT
In the name of the State of Florida.
TO:

Officers of the Florida Highway Patrol, the Sheriff and Deputy Sheriffs of Bay
County, and/or Investigators of the State Attorney’s Office, 14,h Judicial Circuit;
Special Agents of the Florida Department of Law Enforcement

WHEREAS, complaint on oath and in writing, supported by affidavit has been made before the
undersigned Judge of the ]4!h Judicial Circuit, State of Florida, and WHEREAS said facts made
know-n to me have caused me to certify and find that there is probable cause to believe the law's of
the State of Florida have been and are being violated on, or by means of the vehicle, and evidence
that is contained within as follows:
A white, 2008 Hyundai Accent, bearing vehicle identification number
KMEICM36C68U065035, believed to be currently at the Florida Highway Patrol Station
located at 6030 County Road 2321, Panama City, FL 32404
NOW, THEREFORE, you or either of your, with such lawful assistance as may be necessary, are
herebv commanded, in the'daytime or in the night, or on Sunday, and then and there search
diligently for the properly described in this warrant, secure same and to make a return of your
doings under this warrant to the undersigned instanter or as soon as reasonably possible, and you
are likewise commanded in the event you seize or take the property or materials mentioned in this
warrant to safely keep same unt il otherwise ordered by a court having jurisdiction thereof, that you
give proper receipt for said property and deliver a copy of this warrant to the persons from whom
taken or whose possession it is found, or in the absence of any such persons, to leave said copy in
the vehicle where the property or material was found, and you are further directed to bring the
property so found and also the bodies of the persons in possession thereof before the court having
jurisdiction of this offense to be disposed of according to law.
Witness, my hand and official seal this.IS day of April 2016

C i r cu ft/C ou n t y judge

1

2
3

§
Q

g

£ '

EXHIBIT

ft

IN THE CIRCUIT COURT. FOURTEENTH JUDICIAL CIRCUIT
OF THE STATE OF FLORIDA. IN AND FOR BAY COUNTY
STATE OF FLORIDA
vs

Kenneth Lee Manhard
SEARCH/SEIZURE WARRANT RETURN
And returned this 19 day of April, A.D. 2016.
Served by making search as within directed; upon which search I. Corporal William Mathers,
found:

On April 19, 2016, Corporal William Mathers of the Florida Highway Patrol, searched
and seized a white, 2008 Hyundai Accent, bearing vehicle identification number
KMHCM36C68U065035, located at the Florida Highway Patrol Station, Panama City,
FL 32404. The vehicle and its contents were moved from VTF (Vehicle Temporary
Facility and placed into the VIF (Vehicle Impound Facility) at the Florida Highway
Patrol, Panama City station and secured as evidence. Evidence swabs were taking from
multiple surface and collected as evidence by FDLE (Florida Department of LawEnforcement).
No.further items.

I. the undersigned officer by whom the warrant was executed, do swear that the above inventory
contains a true and detailed account of all the property taken by me on said warrant.
STATE OF FLORIDA
COUNTY OF BAY
'-*0-

;■

zyy^

' Corporal William Mathers
FLORIDA HIGHWAY PATROL
/

Witness

Signature Officer Making Return
Corporal William Mathers
Printed Name/ Title
1

2
s
O

g

£

EXHIBIT

Warrant #;

Affiant
Sworn to and subscribed before me this 21 day of April, 2016.

L-

V

Wi|jj2ss/LE0 /State Trooper
The above application for search warrant coming on to be heard and having examined the
applicant under oath and the above sworn affidavit set forth and thereupon being satisfied that
there is probable cause to believe that the grounds set forth in said application do exist and that
the law is being violated as alleged, I so find, and a search warrant is hereby allowed and issued.

/&&&•/£* _____
Circuit^hunty Ji/dge
14th Judicial Circuit of Florida

So!-' vs. Kenneth Manhard, 0320i6CFois4<]A

8?

TN THE CIRCUIT COURT, FOURTEENTH JUDICIAL CIRCUIT
OF THE STATE OF FLORIDA, IN AND FOR BAY COUNTY
STATE OF FLORIDA
vs

Kenneth Lee Manhard
SEARCH/SEIZURE WARRANT RETURN
And returned this 19 day of April, A.D. 2016.
Served by making search as within directed: upon which search I, Corporal William Mathers
Found:
’

On April 19, 2016, Corporal William Mathers of the Florida Highway Patrol, searched
and seized a blue, 2015 TaoTao Scooter, bearing vehicle identification number
L9NPEACBIF100332L located at the Discount Towing and Recovery 9309 Traina
Lane, Panama City Beach, FL 32407. The vehicle and its contents were moved front
Discount Towing and Recovery and placed into the VIF (Vehicle Impound Facility) at
the Florida Highway Patrol, Panama City station and secured as evidence. Vehicle is
being held as evidence for possible paint transfer match.
No further items.

I, the undersigned officer by whom the warrant was executed, do swear that the above inventory
contains a true and detailed account of all the property taken by me on said warrant.
STATE OF FLORIDA
COUNTY OF BAY
Corporal William Maihers
FLORIDA HIGHWAY PATROL
/

ft

7

,, ,

Witness
Signature Officer Making Return
Comoral William Mathers
Printed Name/ Title

Discovery txhibit f

SoF vs. Kenneth Manhard, 0320f6CF0f544A

38

/
/

Supreme Court of jfloriba
Office of the Clerk
500 South Duval Street
Tallahassee, Florida 32399-1927
JOHN A. TOMASINO

Phone Number: (850) 488-0125

Clerk
Mark Clayton
Chief Deputy Clerk
Julia Breeding
Staff Attorney

www.floridasupremecourt.org

ACKNOWLEDGMENT! OF NEW CASE
December 23,2019
RE:

KENNETH LEE MANHARD vs.f

STATE OF FLORIDA

CASE NUMBER: SC19-2133
Lower Tribunal Case Number(s): 1D17-51)10; 032016CFOO1544XXAXMX
Lower Tribunal Filing Date: 12/19/2019
The Florida Supreme Court has received the following documents reflecting a
filing date of 12/19/2019.
Notice to Invoke Discretionary Jurisdiction seeking review of opinion dated
October 1, 2019, in which rehearing was denied November 19, 2019,
The Florida Supreme Court's case number must be utilized on all pleadings and
correspondence filed in this cause.
tr
cc:
DANIELLE JORDEN
SHARON S. TRAXLER
HON. KRISTINA SAMUELS, CLERK

..'t

N

'■■'/•S'A

\

■

&

WALTER’S thrash Aoialysis & R^econstruction Services
walterscars@gmail.com

Fax: (407)834-1471

Cell: (407) 448-3606

Report of Findings
ACCIDENT RECONSTRUCTION
Prepared For:
FRITZ MANN
ASSISTANT PUBLIC DEFENDER
P.O. BOX 580
PANAMA CITY, FLORIDA 32402-0580

—

---- v;

Scott A. Walter
Senior Consultant

July 1. 2017

j

i/

*\

i

WALTER’S Crash Analysis &Reconstruction Services
walterscars@gmail.com

Fax: (407)834-1471

Cell: (407) 448-3606

TABLE OF CONTENTS
yi-i,;*

I.

Introduction

1

II.

Conclusions

3
6

III. Discussion
IV. Basis of Report

11

V.

13

Attachments
A.

Photographs

B.

Certification of Blood Withdrawal

C.

Miranda Warning

D.

Reconstruction Diagrams

E.

1.

Walter’s CARS Diagram

2.

FHP Diagram

3.

Merged Diagrams

CV

July 1. 2017

WALTER’S Crash Ajaalysis & Rj©construction Services
walterscars@gmail.com

Fax: (407)834-1471

CeU:(407) 448-3606

Section I
INTRODUCTION

According to the traffic crash report and traffic homicide report a 2008 white Hyundai
Accent, (V-1), driven by Kenneth Lee Manhard, (D-1), was traveling eastbound on US 98
on the Hathaway Bridge, approximately 1 mile east of CR 3031 in the center eastbound
lane. Jerry Malachi Jones, Jr. (D-2), was driving a blue 2015 Taotao Scooter, (V-2)
eastbound in the center eastbound lane of US 98 in front of V-1. D-1 failed to observe V2 in front of him and struck V-2 in the rear with the right front of V-1 causing V-2 to
overturn. V-2 came to final rest on the eastbound shoulder of the bridge. D-2 came to
rest in the right eastbound lane of US 98. A second unknown vehicle struck D-2 and
dragged him 118 feet to a second point of rest in the eastbound lane. A third vehicle then
struck D-2 and dragged him 57 feet before he came to rest on the eastbound shoulder.

According to eyewitness, Debra Groves, she was the right front passenger in her car
driven by Matthew Shavers. She described at least three and possibly four impacts to D—• —2and-his-seooter-after-arriving-on the^sceneof-the crash-that had occurred at an____ _
unknown time prior to her arrival. She did not see the initial impact to the scooter and did
not have any idea how many times D-2 and his scooter were struck prior to her arrival.
She witnessed a white SUV possibly a Chevrolet Tahoe strike D-2 as he was lying
between the center and right eastbound lanes of US 98 on the Hathaway Bridge. She
stated that when she first saw D-2 he was looking at her and following her car’s
movement as it passed D-2. She stated that Mr. Shavers pulled off the road onto the right
shoulder east of D-2.

She had just gotten out of her car when she observed a white

Chevrolet Tahoe strike the scooter, then run over D-2 throwing him up into the air. As
she went back to her car, she observed a small sedan either green or dark blue in color
with dark tinted windows strike both the scooter and D-2. She heard another impact to

July 1, 2017

Page I

/.—,

WALTER’S Crash Analysis &Reconstruction Services
walterscars@gmail.com

Fax: (407) 834-1471

Cell:(407) 448-3606

the scooter by another vehicle that may have also struck D-2. The next vehicle that she
saw run over D-2 was a black sedan with tinted windows and playing loud music with
what appeared to be a Hispanic male that yelled out his window “wow, that's crazy" as he
left the scene.
Walter’s Crash Analysis & Reconstruction Sen/ices was retained to perform an accident
reconstruction and determine if the evidence was consistent with the crash report, traffic
homicide investigation and the charges resulting from the accident.
This report was prepared for the exclusive use of Fritz Mann and was not intended for
any other purpose. My report was based on the information available to me at the time of
my report, as described in Section IV, BASIS OF REPORT,

Should additional

information become available, I reserve the right to determine the impact, if any, any new
information has on my opinions and conclusions and to revise my opinions and
conclusions, if necessary and warranted through the discovery of new information.

July 1, 2017

Page 2

r'-.

WALTER’S Crash Analysis &Reconstruction Services
walterscars@gmail.com

Fax; (407)834-1471

Cell; (407) 448-3606

Section II
CONCLUSIONS
■■■■■

1.

The FHP Crash Report is not accurate. The crash report authored by Trooper
Brian Gil was not accurate in the fact that it only lists one vehicle (V-1) striking a
scooter (V-2) and that is not consistent with the evidence, witness statements or
depositions. Listing the 2008 Hyundai Accent driven by Kenneth Manhard as V-1
and the first and only vehicle that struck V-2 is not accurate. Although Trooper Gil
identified damage on the Hyundai and Kenneth Manhard in the area of the Hyundai
after 5:35 a.m., there was no evidence that indicated that Mr. Manhard was behind
the wheel of the white 2008 Hyundai between 3:55 a.m. and 4:04 a.m. The narrative
and diagram of his report is conjecture based on circumstantial evidence and not
based on physical evidence or witness statements.

2.

The FHP Traffic Homicide Report is not accurate. The THI report lists a 2008
Hyundai Accent as V-1. There is no evidence to determine that the Hyundai was on
the bridge at or around the time of the first collision. The damage to the front of the
Hyundai was not consistent with the damage to the scooter. The nature of the
damageto the fro'ntl5f the^2008 Hyundai'Accent listed''as-V-r irrthe~afoTementiOned' reports would not be consistent with the damage to the Tautau 50 scooter from the
initial impact. There were blue and green marks on the front of the Hyundai. There
was no source for the green paint on the Tautau scooter. There was no tread mark
evidence on the front of the Hyundai.

There was no tire mark evidence on the

underside of the front bumper of the Hyundai. The damage to the scooter reflected
that the front bumper of the striking vehicle overrode the rear tire of the scooter and
severed the connecting supports for the seat, forcing the seat up.

This damage

would propel‘the rider of the scooter upward prior to striking the windshield. The dent
on the front of the Hyundai, broken right headlight assembly, as well as damage to
the windshield would reflect a straight rearward projection of an object that would

July 1, 2017

Page 3

WALTER’S Crash Ajnalysis & Rjreconstruction Services
walterscars@gmail.com

Fax: (407)834-1471

Cell: (407) 448-3606

have caused the damage and would be more consistent with a pedestrian collision.
The scale diagram provided by Corporal Mathers does not accurately reflect the first
area of collision relating to this crash. The diagram is improperly oriented and there is
no reference to any permanently fixed object or location on the bridge or nearest
intersection. The location on Corporal Mathers diagram of the first area of collision
was not consistent with a crash between a passenger vehicle and a motorcycle,
scooter or bicycle.

The collision of this nature would result in the two-wheeled

vehicle being propelled in an upright position until the front wheel or handlebars are
acted on by an outside force. Second, the driver of such two-wheeled vehicle will be
propelled into the striking vehicle and carried for a distance that is dependant on the
shape, speed and deceleration rate of the striking vehicle.

Corporal Mathers’ first

area of collision on the reconstruction diagram would be more consistent with a
second or third area of collision. This last mentioned scenario is consistent with the
statements made by Debra Groves and Matthew Shavers.
3.

The account of two witnesses, Debra Groves and Matthew Shavers, stated that they
first noticed debris from the crash approximately 50 yards from the base of the
bridge. They also stated the victim was not only conscious, but looked like he was

__ attempting to get up when he was struck by the white SUV.
4.

There was no evidence of white transfer paint in the area of the rear of the scooter.
There was no evidence of parts from the Hyundai in the rear-damaged area on the
scooter.

5.

A witness by the name of Laura Ann Dee observed a 2008 white Hyundai Accent
with damage to the hood, windshield and right front bumper in the parking lot of The
Gold Nugget Gentlemen's Club.
parking lot.

Ms. Dee followed the Hyundai when it left the

She followed him to the Exxon gas station, 7624 Front Beach Road,

Panama City Beach, Florida 32407, She lost sight of the Hyundai at least two times,
with one of those times being when she drove around the back of the Exxon station

July 1, 2017

Page 4

WALTER’S Crash Analysis & Reconstruction Services
walterscars@gmatl.com

Fax: (407)834-1471

Cell: (407) 448-3606

to wait for police. She directed police to the vehicle and Kenneth Lee Manhard who
was outside his vehicle when the police arrived. There were no police officers that
observed Mr. Manhard in actual physical control of the 2008 Hyundai. There were no
witnesses that observed the 2008 Hyundai at or near the crash scene at or near the
time of the crash. There are no witnesses that can place Mr. Manhard in actual
physical control of the Hyundai at or near the crash scene at the time of the crash.
6. At the time that Corporal Mathers talked to the on-call state attorney, he had the
vehicle with damage to the front bumper, headlight, hood and windshield with
possible blood on the windshield and a small amount of blue and green transfer paint
on the front of the Hyundai. He also had the glass shards from the windshield on Mr.
Manhard and in the front and rear seat of the Hyundai. He didn’t mention that there
was a void of glass shards in the passenger front seat under the black jacket that
could have been from a passenger that was wearing the jacket. The first photo of the
black jacket in the front passenger seat of the Hyundai showed the glass shards in
random places on the jacket, not consistent with being in the seat in that location
when the windshield was shattered (Photo 1 and 2). Corporal Mathers also didn’t
mention that there was green transfer paint on the front of the Hyundai with no
source for that paint on the scooter (Photo 3). He didift mention if there were glass
shards on the driver of the scooter to match with the evidence on the Hyundai.
Corporal Mathers had very little to use as circumstantial evidence to tie the 2008
Hyundai and Mr. Manhard to the crash with the Taotao scooter, certainly not enough
to determine that the Hyundai was the vehicle that was the first vehicle to strike the
scooter and make an arrest or conduct a forced blood draw.
7.

Dr. Jay Radtke, the District 14 Medical Examiner, could not associate which impact
caused the injuries to the driver of the Tautau scooter, or which injuries were the life
ending injuries.

July 1, 2017

Page 5

ALTER’S Crash Ajaalysis&R.econstruction Services
walterscars@gmail.com

Fax: (407)834-1471

CeII:(407) 448-3606

Section III
DISCUSSION
Observations
I reviewed all of the Florida Highway Patrol reports, F.D.L.E. laboratory and toxicology
report, field note file, photographs, witness interviews, and depositions. I reviewed the
complete medical examiner’s report and photographs. I Photographed, measured,
inspected and forensically mapped the scene. I physically inspected the 2008 Hyundai,
(V-1) and the 2015 Taotao 50 scooter (V-2). I considered a scale diagram prepared by
the Florida Highway Patrol and conducted my own forensic mapping of the scene. I also
reviewed several video recordings.
Review of Police Report
According to the Florida Highway Patrol Traffic Homicide Investigation report by Corporal
William Mathers, the following was reported. A white Hyundai Accent, (V-1), was being
driven east in the center eastbound lane of US 98 on the Hathaway Bridge by Kenneth
Lee Manhard, (D-1).

A blue 2015 Taotao 50 scooter, (V-2) driven by Jerry Malachi

....JoheST Jr. Was travelihg'^srrnnhe“ceriter”eastbOund'lane of US 98 on the-Hathaways
Bridge in front of V-1. V-1 failed to slow or take evasive action to avoid V-2 and struck
the rear of V-2 causing it to overturn. V-2 came to final rest on the eastbound shoulder of
the Hathaway Bridge and D-2 came to final rest in the right eastbound lane. From there,
a second unknown vehicle struck D-2, dragging him 118 feet east before D-2 came to
final rest a second time in the right eastbound lane. From there, a third vehicle struck D2, dragging him 57 feet before coming to final rest on the eastbound shoulder of the
Hathaway Bridge. Panama City Police Department notified FHP that there was a suspect
vehicle located in the Exxon gas station parking lot with a broken windshield and blood
on the vehicle. Trooper Tavares and a deputy sheriff located the vehicle and driver and
took the driver into custody.

July 1, 2017

Corporal Mathers traveled to the Exxon station and

Page 6

WALTER’S Crash Aoialysis & Rjeconstruction Services
walterscars@gmail.com

Fax: (407) 834-1471

Cell:(407) 448-3606

observed the damage to a white Hyundai Accent (Photograph 5). He noted that there
were two strikes to the windshield with what he thought was blood around the top edge of
the hole in the windshield (Photograph 6). He also noted the damage to the right front
and blue transfer paint that matched the color of the scooter. He noted that there was a
black jacket on the front passenger seat with glass shards and a plastic piece from the
right "A” pillar. He noted that there were glass shards on the front seat and rear seats
with a void in the driver’s seat. He took photographs of the interior and exterior of the
vehicle before going to talk to Mr. Manhard. Corporal Mathers noted there were glass
shards on Mr. Manhard’s clothing, but was unable to photographically record this
evidence. Corporal Mathers smelled the odor of an alcoholic beverage on the breath of
Mr. Manhard. He also noticed that Mr. Manhard’s speech was slurred and he mumbled.
He observed that Mr. Manhard’s eyes were bloodshot and glassy as well as the red color
of his face. He also observed that he appeared to be unsteady. Corporal Mathers asked
the subject his name and the subject replied with Manhard. Corporal Mathers started to
read Mr. Manhard the Miranda warning, but was advised that Trooper Tavares had
already advised him of the Miranda warning and Mr. Manhard had invoked his right to
speak with an attorney before questioning. However, the Miranda Warning in Corporal
Mathers field note file indicates that when Trooper Tavares advised Mr. Manhard his
rights tinder Miranda, he said-he-would-give-a statement.-(Miranda Warning - Page-25)
Corporal Mathers contacted the un-named on-call state attorney and explained his
probable cause. He explained his preliminary findings, including:

How he was able to

locate V-1, how he was able to identify D-1 as the driver and sole occupant of V-1 at the
time of the crash, D-Ts uncooperative nature and the fact that he didn’t have access to
E-Warrants on his computer to obtain a warrant for the blood draw, should one be
needed. The on-call state attorney concurred that he had probable cause to believe that
V-1 was the suspect vehicle that began the chain of events and that D-1 was the sole
occupant and in active physical control of V-1 at the time of the collision.

Corporal

Mathers then went to Trooper Tavares patrol car to inform Mr. Manhard that he was
under arrest.

July 1, 2017

Page 7

WALTER’S Crash Analysis&R©construction Services
walterscars@gmail.com

Fax: (407)834-1471

CeU:(407) 448-3606

D-1 was transported to Gulf Coast Community Hospital for a forced blood draw in which it
took two nurses to take the two samples.

Registered Nurse L. Pierre drew the first

sample and Registered Nurse C. Rodriguez drew the second sample. After the blood
draw Corporal Bailey transported D-1 to the Bay County Jail and asked that Mr. Manhard
submit to a breath test, which he refused.

After Corporal Bailey read Mr. Manhard

implied consent, he continued to refuse to submit to the breath test.
On April 14, 2016, Corporal Mathers attended the autopsy of Jerry Malachi Jones, Jr.,
conducted a laser mapping of the scene, and interviewed Matthew Brian Shavers and
Debra May Groves.
On April 19, 2016, Corporal Mathers picked up a DNA card with the DNA from D-2, at the
District 14 Medical Examiner’s Office, served a warrant on V-1 and had FDLE Crime
Analyst, Taryn Emswiler photograph and process V-1. Corporal Mathers also turned the
DNA card from D-2 over to Ms. Emswiler for comparison. He then examined V-1 and V-2
for mechanical deficiencies. The FDLE crime lab positively matched the blood on the
windshield to D-2.
Analysis
,, .. . .Based-on-the photographs, traffic-ho.micide investigation (THI). review of the statements.
depositions, autopsy report, Laboratory reports and my forensic mapping of the scene
with a Top Con total station, I determined the area of collision between V-1 and V-2 listed
in the THI report was inaccurate. The photograph from the scene photos that was
designated as the area of collision showed two marks On the concrete road surface. The
light mark was from metal contact from the scooter. The second mark was a dark mark
from the scooter’s tire (Photograph 4). These marks would indicate that the scooter was
already down when it was struck at this location. There were no photographs to show the
roadway west of the point that Corporal Mathers listed as “Area of Collision". However,
the statements made by Matthew Shavers and Debra Groves indicated that they
observed debris starting approximately 50 yards (150 feet) from the base of the bridge.

July 1,2017

Page 8

1

I-

WALTER’S Crash .Analysis & Reconstruction Services
walterscars@gm ail.com

Fax: (407)834-1471

CeII:(407) 448-3606

The area of collision listed on the THI report started between over 1000 feet from the
base of the bridge.

The F.D.L.E. laboratory report for the blood sample taken from the windshield and
compared to Jerry Malachi Jones, Jr. DNA sample indicated that he did make contact
with the windshield of the 2008 Hyundai. However, There is no evidence that Mr.
Manhard was the driver at the time of the crash. When I inspected the vehicles at the
Florida Highway Patrol Station, I found evidence on the front of the 2008 Hyundai that
would be consistent with the scooter being down at the time of impact. There is also
evidence that would be consistent with a pedestrian crash on the front of the Hyundai
which would indicate that Mr. Jones was either standing in the roadway at the time of
collision or that he was already in the air from another vehicle’s impact. The fact that
there were lights out on the bridge (Photograph 7) and Mr. Jones was wearing all black
clothing would make him almost invisible if he was a pedestrian from already being struck
by another vehicle. In my inspection of the 2015 Taotao scooter, I examined the light
bulbs on the rear of the scooter as well as what I could see of the headlight without
disassembling it, and found no evidence that would indicate the lights on the scooter
were on at the time of the crash. The Blood Kit that was used to collect the blood from
Mr. Mbnhard listed a “CertifiCation Of Blood Withdrawal Form that only Hsted'Registered—-—
Nurse L. Pierre as the person that was authorized to draw blood. There was no
certification form for the person that drew the second sample, Registered Nurse Christian
Rodriguez. (Certification Of Blood Withdrawal Form - Page 23) The F.D.L.E.
laboratory report that tested Mr. Manhard’s blood for the amount of Ethyl alcohol in his
system at the time of the blood draw revealed 0.191 and 0.190 g/mL in 100 mL of blood.
This amount of alcohol in the blood would indicate that he was over the legal limit of 0.08
percent at the time that his blood was drawn. However, there is no evidence or witness
that can place Mr. Manhard in actual physical control of a motor vehicle at the time of the
crash.

July 1, 2017

Page 9

1

c
r

WALTER’S (Zrash Aaialysis & jR.
econstruction services
walterscars@gmail.com

Fax: (407)834-1471

Cell: (407) 448-3606

1

The statements that Mr. Manhard supposedly made to Richard Waldrup while in the Bay
County Jail would not be consistent with what Mr. Manhard knew about the case. He
knew that he was on video and had witnesses confront him at Ms. Newby’s Liquor Store
prior to the time of the crash. He also knew that a person went onto the hood and
windshield of the 2008 Hyundai and wasn't dragged underneath the vehicle. Mr. Waldrup
stated that he heard Mr. Manhard say that he dragged the person so far it looked like a
spilled bucket of red paint. Mr. Manhard would have no knowledge of this unless he saw
photographs of the scene and would know that the blood trails on the roadway had
nothing to do with the impact with the 2008 Hyndai.

i

I

July 1, 2017

Page I0

